IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
ESAD LEMO,
Petitioner,
v.
COMMONWEALTH of PENNSYLVANIA,
Respondent.
PROOF OF SERVICE
I hereby certify that on the below listed date, as required by Supreme Court
Rules 29.3 and 29.4, the enclosed Motion for Leave to Proceed in Forma Pauperis
and Petition for a Writ of Certiorari were served on each party to the above
proceeding, or that party’s counsel, and on every other person required to be served.
I served the Supreme Court of the United States at the following address via
Federal Express, priority overnight:
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
The following was served by depositing an envelope containing the above
documents in the United States mail properly addressed to, and with first-class
postage prepaid:
Michael W. Streily, Esquire
Office of the District Attorney
4th Floor, Allegheny County Courthouse
436 Grant Street

DATE: May 21, 2021

BY:

34

/s/ Lisa B. Freeland
Lisa B. Freeland
Federal Public Defender
Suite 1500
1001 Liberty Avenue
Pittsburgh, Pennsylvania 15222
(412) 644-6565

